                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                      ACTION MEMORANDUM

1)   TO: AIGI      1         e      A01050013
                       ~ i l ~"rnber:                                             1   Date: 2/26/02

11 Subject: Closeout                                                              I           Page 1 of 1


         On March 1,2001, we received an allegation concerning fabrication and false statements.
         complainant1alleged that in materials submitted to NSF and NIH, subject2 falsely reported
         results of an experiment that had not yet been performed. The matter was opened for preliminary
         inquiry on March 3. OM informed us that Subject had submitted a letter correcting the allegedly
         false statements in his NIH proposal, and that the corrected version was under review. OR1
         forwarded materials to us and agreed that we should take the lead.

         The matter was opened for inquiry on May 15. We determined that the allegation raised factual
         and scientific questions that required specific scientific expertise; we therefore contacted
         Subject's university, who requested that we defer our inquiry while they conducted their\own.
         The University convened an inquiry committee and delivered their report to us on November 29,
         2001. The Committee concluded that 'there is insufficient evidence of fabrication and
         falsification of data involving the above-referenced NSF and NIH proposals to warrant hrther
         investigation under the University's disciplinary rules.' Specifically, the Committee found that
         the allegedly false statements in proposal materials are attributable to miscommunication
         between Subject and the graduate student who conducted the relevant experiments. The
         Committee also found that the student's laboratory notebook does not provide reliable evidence
         of events in the laboratory.

         Our independent analysis of evidence in the case, including laboratory notebooks and transcripts
         of interviews with Subject and the student, supports the Committee's conclusions. We find that
         the University's report is accurate and complete, and we conclude that there is insufficient
         evidence to warrant further investigation. This case is closed and no further action will be taken.


          ' [redacted]
           [redacted]
